                                                                                     1




                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM




          On 13 October 2003, we received an allegation that the subject's NSF proposal' contained
          materials copied, verbatim, from a Workshop ~ e ~ owithout
                                                                 r t ~ appropriately citing the Workshop
          Report as the source.

          We reviewed the Workshop report. We observed that the Workshop Report focused on the
          future research direction of the scientific field. We confirmed that the subject copied a table and
          several sentences from the Workshop Report, verbatim, into his NSF proposal. However we also
          observed that the subject was one of the co-authors of the Workshop Report. Although the
          subject's failure to cite the Workshop Report in the NSF proposal as the source of the table and
          sentences used in his NSF proposal was not the best scholarly practice, as a co-author of the
          report, he could use the materials without citation because he had been one of the authors of the


           his case is closed and no further action taken.




                                                                                                         entitled

                                                                          " was the Workshop Report for the




,I                                                                                                                  '11
 NSF OIG Form 2 (1 1102)
